WAIVER
Supreme Court of the United States
No. 20-1811
Jackie Chagolla
(Petitioner)

v.

Liz Vullo, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for writ of certiorari
unless one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please
enter my appearance as Counsel of Record for the following respondent(s):
Jessica Solis, Robert Holya, & Patricia Ward, Respondents

I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of this Court. Should a response be requested, the
response will be filed by a Bar member.
Signature: /s/ Daniel P. Schaack
Date: 06.29.21
(Type or print) Name: Daniel P. Schaack
Mr.
Ms.
Firm
Address
City & State
Phone

Mrs.

Miss

Arizona Attorney General's Office
2005 North Central Avenue
Phoenix AZ
Zip 85004
(602) 542-7659
Email daniel.schaack@azag.gov

Send a copy of this form to petitioner’s counsel or to petitioner if pro se. Please indicate
below the name(s) of the recipient(s) of a copy of this form. No additional certificate of
service is required.
Cc:

Jackie Chagolla
408 E Loma Vista Dr.
Tempe AZ 85282
jaxi@cox.net

Eileen Dennis GilBride, Es1.
Jones, Skelton & Hochuli, PLC
40 N. Central Ave., Ste. 2700
Phoenix AZ 85004
egilbride@jshfirm.com

9622794

